No.:

In the Supreme Court of the United
States
Lance Hundley
Petitioner,
v.
The State of Ohio,
Respondent.

On Petition for Writ of Certiorari to the Supreme
Court of the State of Ohio

Motion to Proceed In Forma Pauperis
Rhys B. Cartwright-Jones
Counsel of Record
John P. Laczko
42 N. Phelps St.
Youngstown, OH 44503-1130
330-757-6609, tel.
866-223-3897, fax
rhys@cartwright-jones.com
Counsel for Petitioner

The petitioner asks leave to file the
accompanying petition for a writ of certiorari
without payment of costs and to proceed in forma
pauperis.
The petitioner has previously been granted
leave to proceed in forma pauperis in the Mahoning
County Court of Common Pleas for this proceeding.
A copy of the order of appointment is attached [Exh.
1] as is the trial court’s finding of indigence. [Exh. 2.]
Wherefore, the petitioner prays this motion
be granted.
Respectfully Submitted,
Rhys B. Cartwright-Jones
Counsel of Record
John P. Laczko
42 N. Phelps St.
Youngstown, OH 44503-1130
330-757-6609, tel.
216-272-1938, cell.
866-223-3897, fax
rhys@cartwright-jones.com
Counsel for Petitioner

